OFFICE OF THE ATTORNEY GENERAL
Henry C. Whitaker
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3300
Fax (850) 410-2672
Henry.Whitaker@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

July 26, 2021

VIA ELECTRONIC DELIVERY

The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

State of Florida v. Xavier Becerra, Case No. 21A5

Dear Mr. Harris:
On July 23, 2021, the State of Florida filed an emergency application to vacate the
stay entered by the Eleventh Circuit in this case. After Florida’s filing, the Eleventh Circuit
reversed course, vacating the stay and denying the government’s motion for such relief.
The State therefore withdraws its application at this time and thanks the Court for its
consideration.

Sincerely,
/s/ Henry C. Whitaker
Henry C. Whitaker
Counsel of Record

cc:

Elizabeth Prelogar
Acting Solicitor General

